                                                                         ~         SEC&
                                                                    (j                     ~

                                                                ~

                                                                \               IIIIII1   ~.t
                                                                             "vIS~t'


                                                  SOOAL                       SECURITY



MEMORANDUM                                        Office of the Inspector                           General

Date:   September      20,    2001                                                                                          Refer   To:   ICN   31263-23-222



To:     Larry G. Massanari
        Acting Commissioner
         of Social Secu rity
From:
        Inspector General


Subject: Fees   Paid   by State      Disability     Determination                    Services           to Purchase     Consultative
        Examinations         (A-07 -99-21004         )

        The attached final report presents the results of our audit. Our objectives were to
        review the fees paid by State Disability Determination Services to purchase consultative
        examinations and to compare those fees to Medicare fees for the same or similar type
        of service.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General of Audit, at (410) 965-9700.




                                                                                          ~
                                                                                                James    G.   Huse,   Jr.


        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




       FEES PAID BY STATE
    DISABILITY DETERMINATION
     SERVICES TO PURCHASE
   CONSULTATIVE EXAMINATIONS

 September 2001    A-07-99-21004




 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objectives were to review the fees paid by State Disability Determination Services
(DDS) to purchase consultative examinations (CE) and to compare those fees to
Medicare fees for the same or similar type of service.

BACKGROUND
Each State’s DDS performs disability determinations under the Social Security
Administration’s (SSA) Disability Insurance (DI) and Supplemental Security Income
(SSI) programs in accordance with Federal regulations. DDSs are responsible for
obtaining adequate medical evidence to support disability determinations. In doing so,
DDSs may purchase CEs to supplement the medical evidence of record obtained from
claimants’ treating sources. CEs may include medical and psychological examinations,
x-rays, and laboratory tests.

The Department of Health and Human Services (HHS), Centers for Medicare and
Medicaid Services (CMS), administers the Medicare program. Medicare provides
health insurance to approximately 39 million Americans including people who are age
65 and over, those who have permanent kidney failure, and certain people with
disabilities. Medicare is the largest single purchaser of medical services in the world.

Medicare reimburses health care providers for medical services based on fees adjusted
for geographical differences in costs. This adjustment allows for the establishment of
individual State Medicare fee schedules for medical examinations, laboratory tests, and
radiological services within each State. CMS updates the Medicare fee schedules
annually to account for changes in medical practice.

RESULTS OF REVIEW
Our audit disclosed that SSA had limited involvement in establishing the fees paid by
State DDSs to purchase CEs. Federal regulations allow each DDS to establish its rate
of payment for purchasing CEs. The rates may not exceed the highest rate paid by
Federal or other agencies in the State for the same or similar type of service.

Our audit focused on controlling the costs of individual CEs by limiting payment
amounts for CEs to Medicare fees. For five DDSs (Illinois, Kansas, Iowa, Wisconsin,
and Delaware), we identified the CEs that accounted for 75 percent of the total dollars
expended by the DDSs during Calendar Year (CY) 1998 for non-psychological CEs.
For these 91,122 CEs, we compared the DDS’ CE payment amounts to Medicare’s fees
for the same or similar service. For 66,220 of the 91,122 CEs, our audit disclosed that
the DDS’ fees exceeded Medicare fees by approximately $2.4 million. The Illinois DDS
accounted for $2 million of these potential savings. For 24,902 of the 91,122 CEs
analyzed, the DDS’ fees were $317,389 less than Medicare fees. We commend the


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                    i
DDSs for purchasing these CEs at fees less than those allowed by Medicare. The
DDSs should continue their efforts to negotiate with medical providers to obtain the
lowest prices available for CEs.

Our audit also disclosed that the DDS’ ability to provide SSA with management data
related to CEs varies. The variance exists because DDSs use different computer
systems to collect CE data and SSA has not provided DDSs with uniform requirements
for CE data collection. Furthermore, the use of non-uniform CE coding systems by
DDSs affects their ability to provide SSA with essential management information.

Unless SSA adopts a standardized coding system, such as the American Medical
Association’s (AMA) coding system adopted by Medicare, its ability to obtain CEs
electronically may be hindered. This will significantly affect SSA’s plan for implementing
the electronic disability folder. The intent of the electronic folder is to move to a totally
paperless process where all disability claims information, including CEs, is electronically
received and stored.

CONCLUSIONS AND RECOMMENDATIONS
SSA is projecting that disabled beneficiaries will increase to as many as 9.5 million in
the next 10 years. As the volume of disability claims increases, controlling the fees paid
for CEs will become increasingly important. In FY 2000, SSA recognized the need to
control CE costs, initiated changes to decrease these costs, and reported that the CE
purchase rate dropped by 2.2 percent. Because of the drop in the CE purchase rate,
total medical costs dropped by approximately $2 per case. This represented overall
savings in medical costs of $6 million. While SSA has made progress in controlling
overall medical costs, there is still an opportunity for additional medical cost savings,
and consequently, a need still exists to control the costs of individual CEs.

Our audit shows that SSA could reduce the costs of individual CEs by requiring DDSs to
limit CE payment amounts to Medicare fees. Because the medical services provided for
Medicare and DDSs are the same or very similar, we found no reason for DDSs to
reimburse medical providers at fees higher than those allowed by Medicare.

To help control CE costs, we recommend that SSA:

•	 Conduct a CE fee study at DDSs with annual CE expenditures of approximately
   $10 million or more. The study should identify whether the potential cost savings at
   the Illinois DDS are representative of other DDSs with comparable CE expenditures
   and how the use of Medicare fees would affect the DDS’ ability to obtain CEs. If the
   study identifies similar cost savings and proves that the use of Medicare fees will not
   adversely affect the disability programs, SSA should seek legislation requiring DDSs
   to use Medicare fees as the limiting CE payment amount.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                     ii
•	 Improve its oversight of the DDS CE process by: (a) developing uniform CE data
   collection requirements for DDSs; (b) performing periodic evaluations of CE data
   collection processes at DDSs to develop best practices; and (c) encouraging DDSs
   to adopt the AMA’s coding system for CEs.

AGENCY COMMENTS

In response to our draft report, SSA agreed with both of our recommendations.
However, SSA disagreed with our assertion that medical services provided for Medicare
and DDSs are the same or very similar and that there is no reason for DDSs to
reimburse medical providers at fees higher than those allowed by Medicare. (See
Appendix D for the full text of SSA's comments to our report.)

OIG RESPONSE

In its comments, SSA noted four reasons to support DDSs reimbursing medical
providers at fees higher than those allowed by Medicare. As part of the CE fee study
that SSA has agreed to conduct, the Agency should be able to determine how the use
of Medicare fees would affect DDSs’ ability to obtain CEs and whether valid reasons do
exist for reimbursing medical providers at fees higher than those allowed by Medicare.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                               iii
                                                                    Table of Contents

                                                                                                              Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

    Rates of Payment for CEs................................................................................. 4

    Increased CE Costs ......................................................................................... 5

    Comparison of DDS and Medicare Fees........................................................... 5

    The Ability of DDSs to Provide CE Management Data...................................... 7

CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


APPENDICES


APPENDIX A – Sampling Methodology and Data Analysis


APPENDIX B – DDS Average CE Cost Per Disability Claim for FY’s 1994 through 1998


APPENDIX C – DDS CY 1998 CE Cost Comparison To Medicare


APPENDIX D – Agency Comments


APPENDIX E – OIG Contacts and Staff Acknowledgments





Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)
                                                               Acronyms

  AMA            American Medical Association

  CE             Consultative Examination

  CMS            Centers for Medicare and Medicaid Services

  CPT            Current Procedural Terminology

  CY             Calendar Year

  DDS            Disability Determination Services

  DI             Disability Insurance

  EDI            Electronic Data Interchange

  FY             Fiscal Year

  HHS            Department of Health and Human Services

  MER            Medical Evidence of Record

  OD             Office of Disability

  SSA            Social Security Administration

  SSI            Supplemental Security Income





Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)
                                                                            Introduction

OBJECTIVE
Our objectives were to review the fees paid by State Disability Determination Services
(DDS) to purchase consultative examinations (CE) and to compare those fees to
Medicare fees for the same or similar type of service.

BACKGROUND
                       Each State’s DDS performs disability determinations under the
State DDSs
                       Social Security Administration’s (SSA) Disability Insurance (DI)
                       and Supplemental Security Income (SSI) programs in accordance
with the Social Security Act, Federal regulations, and other written guidelines. DDSs
are responsible for obtaining adequate medical evidence to support the disability
determinations. In doing so, DDSs may purchase CEs1 to supplement the medical
evidence of record (MER)2 obtained from claimants’ treating sources. SSA reimburses
DDSs for 100 percent of allowable expenditures.

                     The Department of Health and Human Services (HHS), Centers for
Medicare             Medicare and Medicaid Services (CMS)3 administers the Medicare
                     program. Medicare provides health insurance to approximately
39 million Americans including people who are age 65 and over, those who have
permanent kidney failure, and certain people with disabilities. Medicare is the largest
single purchaser of medical services in the world.4

In January 1992, Medicare began a new payment system for physicians’ services. This
new payment system was in response to a rapid escalation of medical costs, and was
implemented to provide equity and consistency in payments to all physicians.5
Medicare’s payment system reimburses health care providers for medical services
based on fees adjusted for geographical differences in costs. This adjustment allows



1
    CEs include medical and psychological examinations, x-rays, and laboratory tests.
2
  MER includes copies of laboratory reports, prescriptions, x-rays, ancillary tests, operative and pathology
reports, consultative reports, and other technical information.
3
    CMS was formerly named the Health Care Financing Administration.
4
  The Department of Health and Human Services’ Inspector General’s February 17, 2000 testimony
before the House Committee on the Budget.
5                                                                                                       th
 Committee on Ways and Means, United States House of Representatives, The 1996 Green Book, 15
Edition, Appendix E, Medicare Reimbursement to Physicians.



Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                                      1
for the establishment of individual State Medicare fee schedules for medical
examinations, laboratory tests, and radiological services within each State. CMS
updates the Medicare fee schedules annually to account for changes in medical
practice.6

SCOPE AND METHODOLOGY
To accomplish our objectives we:

•	 Reviewed pertinent sections of the Social Security Act, the Code of Federal
   Regulations, and SSA’s Program Operations Manual System;

•	 Reviewed the American Medical Association’s (AMA) Physicians’ Current
   Procedural Terminology (CPT) 1998 Handbook, SSA’s Disability Evaluation Under
   Social Security, and SSA’s CE Guide for Health Professionals;

•	 Gained an understanding of Medicare’s payment system for reimbursing health care
   providers for medical services;

•	 Randomly selected 10 DDSs for on-site field work and obtained electronic data files
   of CE payments made during Calendar Year (CY) 1998 (see Appendix A);

•	 Analyzed CE cost information for the 54 DDSs for Fiscal Years (FY) 1994 through
   1998 obtained from SSA’s Office of Disability (OD) (see Appendix B);

•	 Obtained the individual State Medicare fee schedules for CY 1998 for the
   10 randomly selected State DDSs;

•	 Compared CE payment amounts in the electronic data files obtained from the
   10 DDSs to the CE payment amounts reported to SSA on the Report of Obligations
   (Form SSA-4513) to validate the completeness of the data;

•	 Compared CE payments made by 5 of the 10 randomly selected DDSs to Medicare
   fee schedules (see Appendix C); and

•	 Administered a questionnaire to the 48 continental United States DDSs to obtain
   information on CE fees.7




6                                                                                                       th
 Committee on Ways and Means, United States House of Representatives, The 1996 Green Book, 15
Edition, Appendix E, Medicare Reimbursement to Physicians.
7
    We excluded the Hawaii, Alaska, District of Columbia, Puerto Rico, Guam, and Virgin Islands DDSs.


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                                      2
We conducted our audit field work between March 1999 and March 2001 in

Kansas City, Missouri. The entities reviewed were the State DDSs and OD under the

Deputy Commissioner for Disability and Income Security Programs. We conducted our

audit in accordance with generally accepted government auditing standards.





Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                          3
                                                          Results of Review

Our audit disclosed that SSA had limited involvement in establishing the fees paid by
State DDSs to purchase CEs. Federal regulations allow each DDS to establish its rate
of payment for CEs. We found that SSA could reduce the costs of individual CEs by
requiring DDSs to limit CE payment amounts to Medicare fees. In fact, during CY 1998,
SSA could have saved approximately $2.4 million if they had used Medicare’s fees as
the limiting CE payment amount.

Our audit also disclosed that the DDS’ ability to provide SSA with management data
related to CEs varies. The variance exists because DDSs use different computer
systems to collect CE data and SSA has not provided DDSs with uniform requirements
for CE data collection. Furthermore, the use of non-uniform CE coding systems by
DDSs affects their ability to provide SSA with essential management information.

RATES OF PAYMENT FOR CEs
A DDS’s rate of payment for a CE may not exceed the highest rate paid by the Federal
or other agencies in the State for the same or similar types of service.8 We
administered a questionnaire to the 48 continental United States DDSs to find out how
they derive their CE fees. We found that DDSs use various and multiple sources when
establishing CE fees.9

      •   Twenty-five percent of DDSs use some CE fees established by Medicaid.

      •   Thirty-nine percent of DDSs use some CE fees established by Medicare.

      •	 Fifty-two percent of DDSs use some CE fees established by their parent State
         agency.

      •   Thirty-three percent of DDSs pay usual and customary charges for some CEs.




8
    20 C.F.R. §§ 404.1624 and 416.1024
9
 The DDSs use multiple sources to establish their CE fee schedules; therefore, a DDS can fall into
multiple categories resulting in the percentages adding to more than 100 percent.


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                              4
INCREASED CE COSTS
SSA has experienced increased CE costs over the past several years. From FY 1994
to FY 1998, the average CE cost per claim10 increased by approximately 14 percent.

                                                       CE Cost
                                   FY                  Per Claim
                                  1994                   $159
                                  1995                   $162
                                  1996                   $171
                                  1997                   $173
                                  1998                   $181

We found that 45 of the 54 DDSs experienced increased CE costs from FY 1994 to
FY 1998. We requested 15 of the 45 DDSs11 to explain why CE costs increased. We
selected these DDSs because their average CE costs rose by twice the amount of the
national average. The DDSs attributed increased CE costs to various reasons
including:

     •   Increased CE fees;

     •   Increased continuing disability reviews which resulted in additional CEs;

     •   Increased SSI claims which require additional CEs;

     •	 Additional multiple impairments alleged on claims which require more CE
        purchases;

     •	 High DDS examiner attrition rates resulting in less-experienced examiners who
        request more CEs.

COMPARISON OF DDS AND MEDICARE FEES
For five DDSs, we examined 91,122 CEs accounting for 75 percent of the total CE
dollars expended for non-psychological examinations by the DDSs during CY 1998.
For these 91,122 CEs, we compared the DDS’ payment for the CEs to Medicare fees
for the same or similar service. For 66,220 of the 91,122 CEs, the DDS’ fees exceeded
Medicare fees by $2.4 million. Therefore, SSA could have saved approximately
$2.4 million by using Medicare fees as the limiting payment amount (see Appendix C).


10
  The average CE cost per claim represents the total CE costs divided by the total number of CEs
purchased for all claims processed.
11
 The 15 DDSs were: Connecticut, Maine, Delaware, Georgia, North Carolina, Illinois, Louisiana, Utah,
New Mexico, Wisconsin, Kentucky, Indiana, Hawaii, Massachusetts, and Oregon.


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                                5
For 24,902 of the 91,122 CEs, the DDS’ fees were $317,389 less than Medicare fees
(see Appendix C). We commend the DDSs for purchasing these CEs at fees less than
those allowed by Medicare. The DDSs should continue their efforts at negotiating with
medical providers to obtain the lowest price for CEs.

                     Our analysis of CE expenditures at the five DDSs showed that SSA
The Illinois         could have saved $2.4 million during CY 1998 by using Medicare
DDS                  fees as the limiting payment amount. The Illinois DDS accounted for
                     $2 million of these potential savings. The potential cost savings at
the Illinois DDS may be greater because the DDS pays an additional fee to obtain the
written report of the CEs. During CY 1998, the DDS paid approximately $1.6 million for
CE reports.12

The Illinois DDS was the only DDS in our analysis with CE expenditures that exceeded
$10 million during CY 1998.13 Given the significance of the potential cost savings we
identified at the Illinois DDS, the SSA should determine whether similar cost savings
could be realized at DDSs with comparable CE expenditures. SSA should also
determine how the use of Medicare fees would affect its disability programs. This audit
did not determine the impact that the use of Medicare fees as the limiting CE payment
amount would have on the DDS’ ability to obtain CEs.

                      Because the medical services provided for Medicare and DDSs are
Difference In         the same or very similar, we found no reason for DDSs to reimburse
DDS and               medical providers at fees higher than those allowed by Medicare.
Medicare Fees         The one notable difference we found related to DDSs requesting
                      information from CE providers in addition to the results of the CE.
For example, DDSs will ordinarily request from CE providers a statement on the
claimant’s ability to perform work-related activities as well as other written reports on
specific questions. DDSs use this statement to assist in making a residual functional
capacity determination. Medicare does not require this statement; therefore, it is not
part of Medicare fees. As such, DDSs should provide reasonable compensation to the
CE provider for completing the statement. If Medicare fees are adopted by DDSs as the
limiting CE payment amount, SSA should consider compensating medical providers for
information requested in addition to the results of the CE separately from the cost of the
CE. This would allow SSA to monitor the cost and benefit of the additional
documentation requirements, while allowing comparability to Medicare for the specific
CE requested. Since the DDSs’ do not identify the cost of the additional documentation
separately, we could not determine what impact, if any, such costs might have on the
results of our testing.



12
  Of the five DDSs in our review, the Illinois DDS was the only one that paid a separate fee for the CE
report.
13
 The DDSs with FY 1998 CE expenditures exceeding $10 million included California, New York, Texas,
Ohio, Florida, Michigan, and Georgia.


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                                   6
THE ABILITY OF DDSs TO PROVIDE CE MANAGEMENT DATA
Our audit disclosed that the DDS’ ability to provide SSA with management data related
to CEs varies. This variance exists because DDSs use different computer systems to
collect CE data and SSA has not provided DDSs with uniform requirements for CE data
collection. Furthermore, the use of non-uniform CE coding systems by DDSs affects
their ability to provide SSA with essential management information.

                         The DDSs use multiple, disparate and incompatible computer
DDS Computer             systems and software to process disability claims. The
Systems                  54 DDSs support a variety of software programs.14 We found
                         that the ability of DDSs to provide information and the type of
information DDSs can provide varies and this presented us with several problems in
collecting and analyzing CE data for this audit. SSA staff will have these same
problems in reviewing CE data.

SSA’s Oversight of        SSA has not provided DDSs with uniform CE data
                          collection requirements. As such, DDSs choose what
CE Collection
                          information is collected resulting in inconsistent
                          information being collected at DDSs. For example, during
our review of 10 randomly selected DDSs, we found 3 DDSs were unable to provide
information for individual CE costs (See Appendix A). This occurred because the DDSs
batch multiple CEs for a claimant into one record, with a single CE cost recorded.
Therefore, we question how, or if, the DDSs and SSA determine whether individual CEs
are routinely purchased for more than the established CE fee.

                       The DDSs use different coding systems to identify CEs.
Uniform Coding
                       Adoption of a standardized CE coding system, like the AMA
System
                       coding system used by Medicare, would improve SSA’s and
                       the DDSs’ ability to monitor CE costs and provide a
mechanism for comparison against fees paid by other government agencies. Presently,
approximately 65 percent of the continental United States DDSs use the AMA coding
system to some extent.

The Health Insurance Portability and Accountability Act of 1996,15 required HHS to
adopt national standards for Electronic Data Interchange (EDI) formats for health care
information transactions, as well as code sets for use in those transactions. Code set
means any set of codes used for encoding data elements, such as tables of terms,
medical concepts, medical diagnosis codes, or medical procedure codes.


14
  There are 28 DDSs that use Levy software; 15 DDSs that use Versa software; 2 DDSs that use MIDAS
software; 6 DDSs that planned to install either Levy, Versa, or MIDAS software in FY 2000; and 3 DDSs
that use independent software.
15
     Public Law No. 104-191



Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                             7
Unless SSA adopts a standardized coding system, such as the AMA coding system
adopted by Medicare, SSA’s ability to obtain CEs electronically may be hindered. This
will significantly affect SSA’s plan for the electronic disability folder. The intent of the
electronic folder is to move to a totally paperless process where all disability claims
information, including CEs, is electronically received and stored. Furthermore, SSA’s
adoption of the health care industry’s standards for electronic transactions, including the
AMA coding system, would improve its ability to obtain management data on the CE
process.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                    8
                                                   Conclusions and
                                                   Recommendations
SSA projects that disability beneficiaries will increase to as many as 9.5 million in the
next 10 years. As the volume of disability claims increases, controlling the fees paid for
CEs will become increasingly important. In FY 2000, SSA recognized the need to
control CE costs, initiated changes to decrease these costs, and reported that the CE
purchase rate dropped by 2.2 percent. Because of the drop in the CE purchase rate,
total medical costs dropped by approximately $2 per case. This represented overall
savings in medical costs of $6 million. While SSA made progress in reducing overall
medical costs, a need still exists to control the costs of individual CEs.

Our review shows that SSA could reduce the costs of individual CEs by requiring DDSs
to limit CE payment amounts to Medicare fees. Because the medical services provided
for Medicare and DDSs are the same or very similar, we found no reason for DDSs to
reimburse medical providers at fees higher than those allowed by Medicare.

Furthermore, SSA may not be able to obtain CEs electronically from medical providers
unless it adopts a uniform CE coding system such as the AMA coding system adopted
by Medicare. A uniform CE coding system used by all DDSs will become increasingly
important for SSA oversight of the disability determination process. DDS utilization of
electronic transmission standards would provide many benefits, such as:

   •   Allowing DDSs to obtain medical information faster and more cost efficiently;

   •   Assisting in SSA’s migration to a paperless environment; and

   •	 Allowing easier comparison of DDS CE rates to the Medicare rates paid for
      similar services.

To help control CE costs, we recommend that SSA:

1. 	 Conduct a CE fee study at DDSs with annual CE expenditures of approximately
     $10 million or more. The study should identify whether the potential cost savings at
     the Illinois DDS are representative of other DDSs with comparable CE expenditures
     and how the use of Medicare fees would affect DDS’ ability to obtain CEs. If the
     study identifies similar cost savings and proves that the use of Medicare fees will not
     adversely affect the disability programs, SSA should seek legislation requiring DDSs
     to use Medicare fees as the limiting CE payment amount.

2. 	 Improve its oversight of the DDS CE process by: (a) developing uniform CE data
     collection requirements for DDSs; (b) performing periodic evaluations of CE data
     collection processes at DDSs to develop best practices; and (c) encouraging DDSs
     to adopt the AMA’s coding system for CEs.


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                    9
AGENCY COMMENTS

In response to our draft report, SSA agreed with both of our recommendations.
However, SSA disagreed with our assertion that medical services provided for Medicare
and DDSs are the same or very similar and that there is no reason for DDSs to
reimburse medical providers at fees higher than those allowed by Medicare. (See
Appendix D for the full text of SSA's comments to our report.)

OIG RESPONSE

In its comments, SSA noted four reasons to support DDSs reimbursing medical
providers at fees higher than those allowed by Medicare. As part of the CE fee study
that SSA has agreed to conduct, the Agency should be able to determine how the use
of Medicare fees would affect DDSs’ ability to obtain CEs and whether valid reasons do
exist for reimbursing medical providers at fees higher than those allowed by Medicare.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                             10
                                            Appendices





Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)
                                                                                 Appendix A
Sampling Methodology and Data Analysis
Sampling Methodology

To complete our objectives, we randomly selected 10 Disability Determination Services
(DDS) to provide electronic data of consultative examination (CE) payments issued
during the period of January 1, 1998, through December 31, 1998. The 10 DDSs were
Arizona, Delaware, Illinois, Massachusetts, New York, North Carolina, South Dakota,
Tennessee, Virginia, and Wisconsin.

We dropped 4 of the 10 randomly selected DDSs from the review. We dropped the
New York and Tennessee DDSs from our review because of their participation in recent
Social Security Administration (SSA), Office of the Inspector General audits. The South
Dakota DDS was dropped because it could not provide electronic data files. The
Arizona DDS was dropped because it could not electronically provide all data elements
required for our audit. We replaced these four DDSs with the Iowa, Utah, Oklahoma,
and Kansas DDSs.

Accordingly, we obtained electronic data on CE payments from the Delaware, Illinois,
Iowa, Kansas, Massachusetts, North Carolina, Oklahoma, Utah, Virginia, and Wisconsin
DDSs. However, additional difficulties with the electronic data resulted in our inability to
use files received from the Massachusetts, North Carolina, Oklahoma, Utah, and
Virginia DDSs. The files received from the Massachusetts and Virginia DDSs were not
complete files of all CE payments. The North Carolina, Oklahoma and Utah DDSs
batch CE payments and we were unable to identify individual CE payments.

Data Analysis

We concentrated our review on CE payments for non-psychological examinations. We
identified the DDS’s Current Procedural Terminology (CPT) codes that represented
non-psychological examinations. We then selected the CPT codes with the most
expenditures until we reached 75 percent of the individual DDS’s total expenditures for
non-psychological CEs.

Although Medicare uses the American Medical Association’s (AMA) CPT coding
system, DDSs are not required to code CEs using this standard. As a result, to
compare DDS and Medicare fees, the CPT codes used by DDSs had to be cross-
walked1 to the applicable AMA CPT. We contacted each DDS for assistance in cross-
walking the codes we selected for our review.2


1
  Cross-walk refers to the process of converting the DDS code for an examination to the Medicare code
for the same or similar examination.
2
 The Delaware DDS was not willing to provide assistance in cross-walking the CPT codes therefore; we
performed the cross-walk without the DDS’s assistance.


Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                             A-1
Using the AMA CPT codes provided by the DDS, we determined the maximum
Medicare fee amounts. We also calculated the average amount the DDSs paid for CEs
for each of the CPT codes included. We then compared this average to the maximum
Medicare fee amount, and calculated any differences. Next, we multiplied the
difference by the number of CEs the DDS purchased. This resulted in the amount the
DDS would have saved if they had purchased CEs using the Medicare fee schedule
amount (see Appendix C).




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                         A-2
                                                                       Appendix B
Disability Determination Services (DDS) Average Consultative
Examination (CE) Cost Per Disability Claim for Fiscal Years (FY)
1994 through 1998
                                        CE COST PER
                                 DISABILITY CLAIM AVERAGES
                                                                              Average
 Region/State      FY 1994        FY 1995    FY 1996      FY 1997   FY 1998 Increase or
    DDS                                                                     (Decrease)
    National        $159.02        $161.62    $171.36     $172.58   $180.88    13.75%

   Region I          155.41        162.99     177.27       164.24    177.13    13.98%
  Connecticut        144.47        182.30     201.47       160.14    204.20   41.34%
     Maine           190.21        162.57     192.68       167.09    269.41   41.64%
 Massachusetts       157.81        148.25     159.09       156.28    140.21   -11.15%
New Hampshire        162.80        180.89     207.46       203.24    182.79   12.28%
 Rhode Island        156.17        189.38     156.02       196.69    191.27   22.48%
    Vermont          105.41        110.17     108.67       109.87    107.77     2.24%
   Region II         180.91        178.28     172.30       181.29    189.79     4.91%
  New Jersey         195.51        212.32     213.17       240.31    242.60    24.09%
   New York          179.04        175.80     172.37       175.25    188.61     5.35%
  Puerto Rico        162.09        141.21     123.78       145.42    132.87   -18.03%
 Virgin Islands    Unavailable
   Region III        157.94        169.61     174.14       183.34    173.39     9.78%
   Delaware          204.00        199.60     188.75       197.46    193.15    -5.32%
   District of
   Columbia          198.03        183.29     207.76       211.96    251.20    26.85%
   Maryland          123.63        152.34     144.02       136.48    149.77    21.14%
 Pennsylvania        147.90        166.59     165.48       186.56    150.85     1.99%
    Virginia         151.78        156.92     162.51       172.58    183.83    21.12%
 West Virginia       213.52        204.40     237.19       231.74    255.33    19.58%
  Region IV          138.52        144.59     150.11       150.17    163.81    18.26%
   Alabama           129.70        132.25     131.48       136.02    137.30     5.86%
     Florida         128.41        136.84     125.65       131.17    138.05     7.51%
    Georgia          166.22        178.49     184.96       192.11    214.45    29.02%
   Kentucky          127.13        158.91     175.73       160.59    176.84    39.10%
  Mississippi        149.43        154.97     148.33       136.55    144.25    -3.47%
 North Carolina      150.48        139.11     150.87       160.20    194.41    29.19%
South Carolina –
  Vocational         131.54        136.32     149.90       142.81    160.98    22.38%
South Carolina –
      Blind           62.62         61.06      45.73        61.39     37.87   -39.52%
  Tennessee          136.38        130.19     161.45       152.36    157.31   15.35%




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                 B-1
                                    CE COST PER
                             DISABILITY CLAIM AVERAGES
                                                                              Average
 Region/State      FY 1994      FY 1995      FY 1996      FY 1997   FY 1998 Increase or
    DDS                                                                     (Decrease)
    Region V        149.29       146.87       173.52       179.68    177.85    19.13%
      Illinois      138.65       139.45       178.87       183.50    178.43    28.69%
     Indiana        115.02       124.53       133.61       147.13    147.93    28.61%
    Michigan        129.09       128.84       150.63       150.95    149.26    15.62%
   Minnesota        175.63       151.32       217.25       221.56    204.87    16.65%
       Ohio         193.32       181.71       201.84       212.59    206.94     7.05%
   Wisconsin        154.38       154.63       185.01       195.57    221.02    43.17%
   Region VI        168.24       172.92       187.64       183.34    192.20    14.24%
    Arkansas        119.17       127.23       129.17       128.63    132.49   11.18%
    Louisiana       123.54       125.47       159.31       150.55    167.85    35.87%
  New Mexico        149.53       164.28       175.48       196.11    197.30    31.95%
   Oklahoma         116.18       113.32       118.84       128.62    118.32     1.84%
      Texas         230.61       236.60       248.78       238.25    244.82     6.16%
   Region VII       155.79       143.52       156.60       155.47    181.72    16.64%
       Iowa         163.06       172.79       201.39       201.74    254.61    56.14%
     Kansas         162.17       150.77       165.20       155.93    184.86    13.99%
     Missouri       154.96       134.62       145.12       142.07    166.50     7.45%
    Nebraska        138.34       139.34       143.38       160.74    161.28   16.58%
   Region VIII      172.24       184.76       185.09       195.48    207.41    20.42%
    Colorado        165.77       174.10       168.77       178.71    161.36    -2.66%
    Montana         174.48       161.04       156.10       151.44    164.32    -5.82%
  North Dakota      144.46       161.09       173.02       165.71    181.52   25.65%
  South Dakota      210.51       229.27       241.72       234.28    254.01    20.66%
       Utah         158.33       177.70       191.23       233.22    290.22    83.30%
    Wyoming         252.75       320.36       321.89       315.43    340.53    34.73%
   Region IX        173.40       172.17       177.87       169.69    179.61     3.58%
     Arizona        163.42       175.78       194.30       183.44    196.36   20.16%
    California      168.83       168.31       173.11       163.88    174.77    3.52%
      Guam          315.05       260.57       262.98       337.86    292.31    -7.22%
     Hawaii         303.54       296.05       278.21       244.08    271.12   -10.68%
     Nevada         237.99       227.07       255.80       295.84    249.66    4.90%
    Region X        186.32       203.75       226.73       230.27    265.37    42.43%
     Alaska         338.43       417.76       419.63       464.96    615.20    81.78%
      Idaho         202.75       190.73       212.16       216.97    230.23    13.55%
     Oregon         186.22       242.85       238.87       238.02    307.08   64.90%
   Washington       172.04       175.19       204.96       205.80    215.68    25.37%




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                             B-2
                                                                          Appendix C
Disability Determination Services (DDS) Calendar Year 1998
Consultative Examination (CE) Cost Comparison to Medicare
Table C-1: Average CE Fees Paid by Five DDSs that exceeded the Medicare Fee
Schedule Amount

                                                            DDS                Number of CEs
                                                          Average     Number     Times the
                                    DDS                   Fee Less     of CEs   DDS Average
  State         DDS       Medicare Average     Medicare   Medicare   Purchased   Fee Less
  DDS           Code       Code      Fee         Fee        Fee       by DDS    Medicare Fee
Illinois     01800         99201      $80.34     $37.71     $42.63     35,846   $1,528,114.98
Illinois     01887         99201       80.69      37.71      42.98      6,163      264,885.74
Illinois     94060         94060       94.70      70.70      24.00      6,349      152,376.00
Kansas       710100000     71010       42.34      27.06      15.28      1,123      117,159.44
Kansas       940100000     94010       91.25      32.50      58.75      1,319       77,491.25
Kansas       721000000     72100       64.83      36.42      28.41      2,198       62,445.18
Illinois     5010          92506       80.94      58.17      22.77      2,197       50,025.69
Iowa         72100         72100       84.18      35.19      48.99        742       36,350.58
Iowa         01255         97001      164.84      57.57     107.27        333       35,720.91
Iowa         94060         94060      110.53      56.71      53.82        479       25,779.78
Iowa         90622         99244      181.00     137.25      43.75        569       24,893.75
Wisconsin    T01           94060      102.10      60.64      41.46        516       21,393.36
Wisconsin    X03           72100       50.41      37.52      12.89      1,569       20,224.41
Wisconsin    16A           92506      110.36      52.43      57.93        270       15,641.10
Wisconsin    X031         72100-26     20.32      12.08       8.24      1,568       12,920.32
Wisconsin    T14           78461      860.63     247.10     613.53         18       11,043.54
Delaware     E1000         99253      118.87     110.76       8.11      1,146        9,294.06
Kansas       735600000     73560       44.56      28.14      16.42        564        9,260.88
Kansas       OPHTHOOO      92081       67.03      24.64      42.39        214        9,071.46
Kansas       735600002     73560       98.79      56.28      42.51        203        8,629.53
Wisconsin    X10           73560       55.04      28.98      26.06        309        8,052.54
Kansas       735600001     73560       46.00      28.14      17.86        425        7,590.50
Delaware     E2000         92506      177.29      55.37     121.92         48        5,852.16
Wisconsin    T05           93015      243.53     120.76     122.77         47        5,770.19
Wisconsin    X11           73560       85.67      57.96      27.71        194        5,375.74
Kansas       940102600    94010-26     22.93      16.91       6.02        657        3,955.14
Wisconsin    X01           71020       44.61      35.67       8.94        367        3,280.98
Kansas       930000000     93000       33.83      28.85       4.98        457        2,275.86
Delaware     E1050         99244      160.50     151.14       9.36        202        1,890.72
Delaware     E1400         99244      161.46     151.14      10.32        128        1,320.96
    Totals                                                             66,220   $2,438,086.75




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                   C-1
Table C-2: Average CE Fees Paid by Five DDSs that were Below Medicare’s Fees

                                                          Medicare          Number of CEs
                                                          Fee Less Number     Times the
                                     DDS                    DDS     of CEs   Medicare Fee
  State           DDS     Medicar   Average    Medicare   Average Purchased   Less DDS
  DDS             Code     e Code     Fee        Fee        Fee    by DDS    Average Fee
Illinois    72110          72110       47.95     60.52      12.57     8,131    102,206.67
Wisconsin   06A            99244      119.54    143.38      23.84     2,327     55,475.68
Wisconsin   01A            99244      118.42    143.38      24.96     1,627     40,609.92
Iowa        90620          99244      127.74    137.25       9.51     3,234     30,755.34
Kansas      906001104      99244      110.05    140.13      30.08       546     16,423.68
Wisconsin   08A            99244      122.45    143.38      20.93       685     14,337.05
Wisconsin   15A            99245      118.26    193.21      74.95       162     12,141.90
Kansas      906000CMC      99242       75.24     77.08       1.84     3,583      6,592.72
Kansas      906008501      99243       90.44     99.91       9.47       636      6,022.92
Kansas      906008509      99243       84.94     99.91      14.97       398      5,958.06
Kansas      906007000      99242       69.79     77.08       7.29       817      5,955.93
Kansas      906008504      99243       85.36     99.91      14.55       249      3,622.95
Iowa        90621          99244      135.21    137.25       2.04     1,714      3,496.56
Wisconsin   10A            99243      126.49     137.2      10.71       296      3,170.16
                           +
                           92082
Wisconsin   01B            99244      118.47    143.38      24.91       120      2,989.20
Wisconsin   07A            99244      124.67    143.38      18.71       157      2,937.47
Wisconsin   08C            99244      123.43    143.38      19.95       124      2,473.80
Wisconsin   01E            99244      120.27    143.38      23.11        96      2,218.56
  Totals                                                             24,902   $317,388.57




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                C-2

Table C-3: List of CPT Codes Reviewed and Associated Descriptions

  Medicare
   Code                                                Code Description
  71010         Radiologic examination, chest, single view, frontal
  71020         Radiologic examination, chest, two views, frontal and lateral
  72040         Radiologic examination, spine, cervical, anteroposterior and lateral
  72100         Radiologic examination, spine, lumbosacral, anteroposterior and lateral
  72100-26      Interpretation – LS spine X-ray, two views
  72110         X-Ray, spine, lumbosacral, multiple views
  73560         Radiologic examination, femur, anteroposterior and lateral views
  78461         Multiple studies, (planar) at rest and/or stress (exercise and/or pharmacologic), and
                redistribution and/or rest injection, with or without quantification
   92081        Visual field examination, unilateral or bilateral, with interpretation and report; limited
                examination
   92082        Intermediate examination
   92506        Evaluation of speech, language, voice, communication, auditory processing, and/or
                aural rehabilitation status
   92553        Pure tone audiometry, air and bone
   92555        Speech audiometry, threshold
   92556        Speech audiometry with speech recognition
   93000        Electrocardiogram, routine ECG with a least 12 leads; with interpretation and report
   93005        Electrocardiogram, routine ECG with a least 12 leads; tracing only, without
                interpretation and report
   93015        Cardiovascular stress test using maximal or submaximal treadmill or bicycle exercises,
                continuous electrocardiographic monitoring, and/or pharmacological stress; with
                physician supervision, with interpretation and report
   94010        Spirometry, including graphic record, total and timed vital capacity, expiratory flow rate
                measurement(s), with or without maximal voluntary ventilation
   94010-26     Spirometry interpretation
   94060        Bronchospasm evaluation: spirometry as in 94010, before and after bronchodilator
                (aerosol or parenteral) or exercise
   97001        Physical therapy evaluation
   99201        Initial office visit or other outpatient services
   99242        Office or other outpatient consultation
   99243        Office or other outpatient consultation
   99244        Office or other outpatient consultation
   99245        Office or other outpatient consultation
   99253        Initial inpatient consultation




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                                C-3

                                                          Appendix D
Agency Comments




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)
                                                       .".\. SEC&

                                                   ~
                                                   \     Ullm#
                                                       ";\11STi-~

                                         SOCIAL          SECURI1Y


MEMORANDUM


Date'      August 29,2001                                                      Refer To:   SlJ-3

To:        JamesG. Ruse, Jr.
           Inspector General
                                                  1M                ~
From:      Larry G. Massanari
                                         ;(.,.
           Acting Commissioner

           Office of the  -Draft
                                    ti        Report, "Review of FeesPaid by StateDisability
Subject:
           Detennination Services to PurchaseConsultative Examinations" (A-O7-99-2l004)­
           INFORMA TION


           Thank you for the opportunity to review and comment on the subject report. We appreciate
           OIG's efforts in conducting this review and our comments are attached.

           Staff questions may be directed to Janet Carbonaraon extension 53568.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FEES PAID BY STATE DISABILITY DETERMINATION SERVICES TO
PURCHASE CONSULTATIVE EXAMINATIONS” (A-07-99-21004)

We appreciate OIG’s efforts in conducting this review and the opportunity to comment on the
draft report. Our comments on the recommendations are provided below.

Recommendation 1

Conduct a consultative examinations (CE) fee study at Disability Determination Services (DDS)
with annual CE expenditures of approximately $10 million or more. The study should identify
whether the potential cost savings at the Illinois DDS are representative of other DDSs with
comparable CE expenditures and how the use of Medicare fees would affect DDS’ ability to
obtain CEs. If the study identifies similar cost savings and proves that the use of Medicare fees
will not adversely affect the disability programs, SSA should seek legislation requiring DDSs to
use Medicare fees as the limiting CE payment amount.

SSA Comment

We agree that the recommended study should be conducted. The Office of Disability and
Income Security Programs is planning to begin the study in December 2001 and to complete the
necessary analysis by the end of July 2002. Any recommendations such as a legislative proposal
will depend on the results of the study.

We disagree with the assertion in the Executive Summary that medical services provided for
Medicare and DDSs are the same or very similar and that there is no reason for DDSs to
reimburse medical providers at fees higher than those allowed by Medicare. There are several
reasons for higher reimbursement rates:

•	   The nature of the “service” differs (reimbursement for medical treatment versus evaluation of
     disability);
•	   The price-setting mechanism differs (Medicare reimbursements have been limited by
     Congressional action in recent years; marketplace considerations may affect CE costs);
•	   SSA may reasonably pay a higher price for a CE in order to get fast and reliable medical
     information to process a medical determination;
•    States may use other public (Federal or State) fee schedules.

On page 5 of the subject report OIG states that DDSs, in the CE process, request written
statements on a claimant’s ability to work as well as other written statements not required by
Medicare, thus justifying a higher reimbursement rate for CEs. Such information is used by the
DDSs for disability determinations.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                       D-2
Recommendation 2

Improve its oversight of the DDS CE process by: (a) Developing uniform CE data collection
requirements for DDSs; (b) performing periodic evaluations of CE data collection processes at
DDSs to develop best practices; and (c) encouraging DDSs to adopt the AMA’s coding system
for CEs.

SSA Comment

We agree and provide the following: a) We have and will continue to provide the funding for the
DDSs to purchase software that will enable them to develop CE data collection. Additionally,
SSA understands that the Health Insurance Portability and Accountability Act (HIPAA) of 1996
requires the Department of Health and Human Services (HHS) to adopt national standards for
Electronic Data Interchange (EDI) formats for health care information transactions, as well as
code sets for use in those transactions. The implementation of HIPAA should address the issue
of the DDSs establishing the uniform coding system for the data collection. b) The Office of
Disability and Income Security Programs facilitates the sharing of best practices on all issues
regarding the collection of DDS medical cost data. c) On March 12, 1999, the Office of
Disability and Income Security Programs issued a DDS Administrators’ Letter which identified
steps that a DDS should follow if it elected to relate its medical procedure fee schedule to the
Medicare fee schedule (which uses the AMA’s coding system). We will reissue this reminder to
the DDSs on an annual basis. However, some DDSs may still be required, by the State, to use a
parent agency fee schedule, coding system and payment process.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)                                     D-3
                                                                       Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

   Mark Bailey, Deputy Director, (816) 936-5591

Staff Acknowledgments

In addition to those named above:

   Ronald Bussell, Lead Auditor

   Kenneth Bennett, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-99-21004.




Fees Paid by State DDSs to Purchase CEs (A-07-99-21004)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
